978 F.3d 1298
United States Court of Appeals, Federal Circuit.
CORCAMORE, LLC, Appellant v.
SFM, LLC, Appellee
2019-1526
Decided: October 27, 2020
[1299] Appeal from the United States Patent and
Trademark Office, Trademark Trial and Appeal
Board in No. 92060308.
Before Reyna, Chen, and Hughes, Circuit Judges.
Opinion
Reyna, Circuit Judge.
Corcamore LLC appeals an order of the United
States Patent and Trademark Office, Trademark
Trial and Appeal Board. The Board entered default
judgment as a sanction against Corcamore, which
resulted in the cancellation of Corcamore's
trademark registration for SPROUT. On appeal,
Corcamore contends that the Board erred in granting
default judgment, in particular because SFM LLC
lacked standing to petition for cancellation of the
trademark registration. We conclude that appellee
SFM was entitled to bring and maintain a petition
under 15 U.S.C. § 1064, the statutory cause of action
for cancellation of trademark registrations, and that
the Board did not otherwise abuse its discretion in
imposing default judgment as a sanction. We affirm.

App. 1

A.

BACKGROUND
The Parties and Trademarks

SFM LLC (“SFM”) owns the federal
registration for SPROUTS and other SPROUTS
nominative trademarks for use in connection with
retail grocery store services. J.A. 121 ¶ 5. The
SPROUTS mark was first used in commerce at least
as early as April 15, 2002. Id. The below image
illustrates the use of the SPROUTS mark in a
Sprouts Farmers Market grocery store.
[1300]

J.A. 822.
Corcamore LLC (“Corcamore”) owns a federal
trademark registration for SPROUT for use in
connection with vending machine services. The
registration claims a first use date of May 1, 2008.
J.A. 121 ¶ 4. Corcamore's SPROUT mark is used by
its affiliate, Sprout Retail, Inc., in combination with a
cashless payment card, the “Sprout OneCard,” and

App. 2

an associated SPROUT-branded loyalty program for
consumers that buy food and beverages at certain
vending machines. J.A. 1222–23 ¶¶ 3–5; J.A. 643–48.
Corcamore's SPROUT mark is also used on a
SPROUT-branded website where users of the Sprout
OneCard can monitor their food purchases and
loyalty points and view promotions offered to holders
of the Sprout OneCard (pictured below). See J.A.
423–24; J.A. 643; J.A. 645; J.A. 648.

J.A. 424, 643.
B. Procedural History
SFM filed a petition with the United States
Patent and Trademark Office's Trademark Trial and
Appeal Board (“TTAB” or “Board”) to cancel
Corcamore's registration for SPROUT. J.A. 98–104;
J.A. 120–25 (First Amended Petition for
Cancellation). SFM claimed that its rights to the
SPROUTS mark were superior to Corcamore's rights
because the mark had been in use since “at least as
early as 2002,” and Corcamore “did not make use of
the trademark SPROUT prior to May 1, 2008, the

App. 3

date of first use claimed in the [1301] registration.”
J.A. 121–22 ¶¶ 3, 8. SFM alleged that it would be
damaged by the continued registration of the
SPROUT mark because use of the mark was “likely
to cause confusion or mistake, or to deceive the
purchasing public” with respect to the source of the
goods it sold under its SPROUTS mark. J.A. 122–23
¶¶ 9, 16.
Corcamore moved to dismiss SFM's petition for
lack of standing under Rule 12(b)(6) of the Federal
Rules of Civil Procedure. See J.A. 136–40. Corcamore
argued that SFM lacked standing to bring a petition
for cancellation of a registered trademark, citing the
analytical framework established by the Supreme
Court in Lexmark International, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 134 S.Ct. 1377, 188
L.Ed.2d 392 (2014), for determining whether the
requirements for maintaining a statutory cause of
action have been satisfied. See J.A. 136–40. The
Board determined that Lexmark was not applicable
in this case, and denied Corcamore's motion to
dismiss for lack of standing and motion for
reconsideration. J.A. 11–12, 30–32. The Board
reasoned that Lexmark was limited to civil actions
involving false designation of origin (referred to as
false advertising) under 15 U.S.C. § 1125(a) and does
not extend to cancellation of registered marks under
15 U.S.C. § 1064. J.A. 11–12. The Board instead
relied on the analysis adopted by this court in
Empresa Cubana del Tabaco v. General Cigar Co.,
753 F.3d 1270 (Fed. Cir. 2014), and concluded that

SFM had standing because it sufficiently alleged a
real interest in the cancellation proceeding and a
reasonable belief of damage, as required under 15
U.S.C. § 1064. J.A. 11. As a result, the Board found
that SFM had standing to bring a petition to cancel
Corcamore's trademark registration. J.A. 11.
After the Board denied its motion to dismiss,
Corcamore sent a letter to SFM's counsel indicating
that it would bring “procedural maneuvers” against
SFM and delay discovery. J.A. 8A1p,.¶00
24
; J.A. 894.
Corcamore then embarked on a path of conduct that
resulted in two separate sanctions and entry of
default judgment in favor of SFM. First, Corcamore
filed four motions requesting affirmative relief,
including a motion for reconsideration of the Board's
denial of its motion to dismiss, a motion for Rule 11
sanctions, a motion for summary judgment on the
ground of collateral estoppel or issue preclusion, and
a motion to strike. See J.A. 93. The Board deferred
action on the motion for reconsideration but denied
the motions for summary judgment, Rule 11
sanctions, and to strike. J.A. 16–26. Second, the
Board determined that Corcamore had filed an
“inordinate number of motions (all of which were
denied) at a very early stage in this proceeding.” J.A.
23. Accordingly, the Board sanctioned Corcamore,
prohibiting it from filing any additional unconsented
motions without first obtaining Board permission (the
“First Sanction”). J.A. 23–25.
At the opening of discovery, the Board stayed
the First Sanction and SFM filed a motion to compel

responses to its written discovery requests. See J.A.
40, 94. The Board ordered the parties to suspend
filing papers not related to SFM's motion to compel.
See J.A. 82–83. Despite this instruction, Corcamore
filed numerous motions unrelated to SFM's motion to
compel, including its own motion to compel discovery,
a motion for a protective order to halt SFM's Rule
30(b)(6) deposition of a Corcamore representative, a
motion to reconsider the denial of its motion for a
protective order, and a motion to consolidate the
proceeding with another proceeding. See J.A. 94.
The Board denied Corcamore's motion for a
protective order to halt the deposition, which was filed on
the eve of the [1302] dAepppo.si0t0io5n, and ordered Corcamore's

witness to appear the following day as noticed. The Board
cautioned that should Corcamore fail to comply, “the
Board may entertain an appropriate motion for relief.”
J.A. 87. Corcamore failed to appear and did not alert SFM
or the Board that the witness would not appear at the
deposition. See J.A. 901, ¶¶ 16–17, 20. When SFM
attempted to reschedule the deposition, Corcamore served
objections and again refused to appear.
On October 25, 2017, SFM filed a motion to compel
supplemental responses to certain document requests and
interrogatories. On February 27, 2018, the Board grantedin-part SFM's motion and ordered Corcamore to comply
with several enumerated instructions. J.A. 69–70. The
Board instructed Corcamore that an evasive or incomplete
response would be equivalent to a failure to disclose and
advised SFM that the Board would entertain a motion for
appropriate sanctions if Corcamore failed to comply with
the order. J.A. 70. In the same order, the Board imposed
another sanction (the “Second Sanction”), prohibiting
Corcamore from “filing any additional unconsented or
unstipulated motions without first obtaining prior Board
permission.” Id. at 71. Corcamore did not comply with the
written-discovery order by, among other reasons, failing
to serve timely supplemental responses, maintaining
frivolous objections, and filing nonresponsive
answers. See J.A. 87–88.
Unperturbed by the Second Sanction, Corcamore
filed an “objection” to the Board's February 27, 2018 order
and made several requests to file a variety of different
procedurally impermissible motions. The Board denied
Corcamore's unapproved filings for failure to comply with
the Second Sanction.
App. 6

At the close of discovery, SFM moved for default
judgment as a sanction for Corcamore's litigation
misconduct. J.A. 95. The Board granted the order on two
grounds. First, the Board pointed to its express authority
to award judgment as a sanction under 37 C.F.R. §
2.120(h) and Fed. R. Civ. P. 37(b)(2). Relying on its
express authority, the Board granted default judgment as
a sanction against Corcamore for its violations of the
deposition order and numerous provisions of the written
discovery order. J.A. 84–85; J.A. 87–88. Second, pointing
to its inherent authority to control its cases and docket,
the Board entered judgment as a sanction against
Corcamore for litigation misconduct, including its refusal
to cooperate with SFM's counsel to resolve discovery
issues, violation of Board orders not to file non-germane
papers, and violation of Board orders to properly serve
documents. J.A. 85–86; J.A. 89–91.
The Board concluded that a lesser sanction would
be inappropriate because Corcamore had on numerous
occasions already violated the First and Second Sanctions.
J.A. 89–90. The Board recognized that Corcamore
engaged in willful, bad-faith tactics, consistent with its
“procedural maneuvers” letter, frustrated SFM's ability to
advance its case, and taxed Board resources. J.A. 91.
Consequently, the Board entered default judgment
against Corcamore and ordered that Corcamore's
registration “be cancelled in due course.” Id. Corcamore
timely filed this appeal. We have jurisdiction under 28
U.S.C. § 1295 (a)(4)(B).

App. 7

DISCUSSION
Corcamore makes two arguments on appeal. First,
Corcamore contends that SFM lacks standing to bring a
petition for cancellation of a registered trademark.
Corcamore contends that the Board erred as a matter of
law when it applied this court's analysis in Empresa
Cubana instead of the [1303] analytical framework
established by the Supreme Court in Lexmark. Second,
Corcamore argues that the Board abused its discretion in
granting default judgment as a sanction. We first address
the standing issue.
Whether a party is entitled to bring or maintain a
statutory cause of action is a legal question that we
review de novo. Empresa Cubana, 753 F.3d at 1274
(citing Lexmark, 572 U.S. at 129, 134 S.Ct. 1377). In this
appeal, we review de novo whether SFM pleaded
sufficient facts to establish entitlement to challenge
Corcamore's registered trademark under § 1064.
We first observe that there exists confusion in the
law stirred by the inconsistent use of the term “standing.”
As Justice Scalia observed, certain issues often discussed
in terms of “standing” are more appropriately viewed as
requirements for establishing a statutory cause of
action. Lexmark, 572 U.S. at 128 n.4, 134 S.Ct. 1377. That
is the case here. To be clear, this appeal does not involve
the traditional legal notions of Article III standing. This
appeal focuses instead on the requirements that a party
must satisfy to bring or maintain a statutory cause of
action, such as a petition to cancel a registered trademark
under 15 U.S.C. § 1064.
App. 8

A. Lexmark
Corcamore contends that we should reverse the
Board's ruling because it applied the standard articulated
by this court in Empresa Cubana instead of the analytical
framework established in Lexmark. We hold that
the Lexmark analytical framework is the applicable
standard for determining whether a person is eligible
under § 1064 to bring a petition for the cancellation of a
trademark registration. However, because we discern no
meaningful, substantive difference between the analytical
frameworks expressed in Lexmark and Empresa Cubana,
we do not agree that the Board reached the wrong result
in this case.
In Lexmark, the Supreme Court established two
requirements for determining whether a party is entitled
to bring or maintain a statutory cause of action: a party
must demonstrate (i) an interest falling within the zone of
interests protected by the statute and (ii) proximate
causation. 572 U.S. at 129–34, 134 S.Ct. 1377. The Court
explained that those two requirements “suppl[y] the
relevant limits on who may sue” under a statutory cause
of action. Id. at 134, 134 S.Ct. 1377. The Court made clear
that the zone-of-interests requirement applies to all
statutory causes of action, and that proximate causation
generally applies to all statutory causes of action. Id. at
129, 133, 134 S.Ct. 1377.
In Lexmark, the Court addressed the cause of
action for false advertising provided in 15 U.S.C. §
1125(a). Id. at 129–37, 134 S.Ct. 1377. The Court held
that in order for a person to “come within a zone of
interests in a suit for false advertising under § 1125(a), a
plaintiff must allege an injury to a commercial interest in
App. 9

reputation or sales.” Id. at 131–32, 134 S.Ct. 1377. The
Court explained that the zone-of-interests test is “not
especially demanding,” and that “the benefit of any doubt
goes to the plaintiff.” Id. at 130, 134 S.Ct. 1377 (citation
and internal quotation marks omitted). The Court further
explained that the purpose of the zone-of-interests test is
to “foreclose[ ] suit only when a plaintiff's interests are so
marginally related to or inconsistent with the purposes
implicit in the statute that it cannot reasonably be
assumed that Congress authorized that plaintiff to
sue.” Id. (citation and internal quotation marks omitted).
As to the second requirement, proximate causation,
the Court noted that it is “generally
[1304]
presume[d]” that “a statutory cause of action is limited to
plaintiffs whose injuries are proximately caused by
violations of the statute.” Id. at 132, 134 S.Ct. 1377. The
Court explained that “the proximate-cause requirement
generally bars suits for alleged harm that is ‘too remote’
from the defendant's unlawful conduct.” Id. at 133, 134
S.Ct. 1377 (citation omitted). Regarding false advertising,
the Court held that “a plaintiff suing under §
1125(a) ordinarily must show economic or reputational
injury flowing directly from the [alleged false
advertising].” Id. The Court explained, however, that the
proximate-causation requirement “is not easy to define,”
has “taken various forms,” and “is controlled by the
nature of the statutory cause of action.” Id. The relevant
question, the Court explained, is “whether the harm
alleged has a sufficiently close connection to the conduct
the statute prohibits.” Id.
Empresa Cubana was this court's first postLexmark appeal to address the requirements to bring a
cancellation proceedinAgpu
r § 1064. 753 F.3d at 1274–
p.n0d1e0

76.1 We recognized Lexmark's impact on the false
advertising cause of action under § 1125(a), but we
addressed Lexmark only in passing and, in particular, did
not address whether the Lexmark framework applies to §
1064. Instead, we relied on our precedents in Ritchie v.
Simpson, 170 F.3d 1092 (Fed. Cir. 1999) and Lipton
Indus., Inc. v. Ralston Purina Co., 670 F.2d 1024, 1029
(CCPA 1982), and concluded that petitioner had a cause
of action under § 1064 because it demonstrated “a real
interest in cancelling the [registered trademarks at issue]
and a reasonable belief that the [registered trademarks]
are causing it damage.” Id. at 1274.
Here, the Board determined that
the Lexmark framework does not apply to § 1064
because Lexmark addresses § 1125(a), a different
statutory provision. See J.A. 11–12 (explaining that
“Lexmark involved a case of false advertising in a civil
action arising under § 43(a) of the Lanham Act, 15 U.S.C.
§ 1125(a); that is not the statutory provision(s) at issue in
this Board cancellation”). The Board's interpretation
of Lexmark is unduly narrow.
To be clear, § 1064, like § 1125(a), is a statutory
cause of action provided in the Lanham Act. See Empresa
Cubana, 753 F.3d at 1275–76 (holding that appellant
demonstrated entitlement to a “statutory cause of action”
under the Lanham Act). A “cause of action” consists of two
elements: operative facts and the right or power to seek
and obtain redress for infringement of a legal right which
those facts show. See 1A C.J.S. Actions § 53; see
also Cause of Action, Black's Law Dictionary (11th ed.
2019) (“A group of operative facts giving rise to one or
more bases for suing.”).
App. 011

Congress created in § 1064 a group of operative
facts that grant to “any person” the right to petition for
cancellation of a registered mark if that person “believes
that he is or will be damaged ... by the registration of a
mark on the principal register.” 15 U.S.C. § 1064.
Whether a specific person alleging a specific injury meets
these operative facts requires us to interpret §
1064. See Lexmark, 572 U.S. at 128, 134 S.Ct. 1377. To
that end, we apply the “traditional principles of statutory
interpretation” articulated in Lexmark: zone of interests
and proximate causation. Id.
[1305]
The Lexmark analytical framework
applies to § 1064 and § 1125(a) because both are statutory
causes of action. As Justice Scalia exhorted, the zone-ofinterests requirement “applies to all statutorily created
causes of action” and it “applies unless it is expressly
negated.” Lexmark, 572 U.S. at 129, 134 S.Ct. 1377. The
proximate-causation requirement generally applies to all
statutory causes of action, even where a statute does not
expressly recite a proximate-causation
requirement. See id. at 132, 134 S.Ct. 1377 (“generally
presum[ing]” that the proximate-causation requirement
applies to all statutory causes of action); see
also id. (identifying three exemplary federal causes of
action where the Supreme Court “incorporate[d] a
requirement of proximate causation”). In view of the
Supreme Court's instructions, we see no principled reason
why the analytical framework articulated by the Court
in Lexmark should not apply to § 1064.
The Board's conclusion to the contrary fails to
recognize that Lexmark binds all lower courts not only
regarding § 1125(a) but also with respect to the analytical
framework the Court A
upsepd. 0t1
o 2reach its decision. See,

e.g., Seminole Tribe of Florida v. Florida, 517 U.S. 44, 67,
116 S.Ct. 1114, 134 L.Ed.2d 252 (1996) (“When an opinion
issues for the Court, it is not only the result but also those
portions of the opinion necessary to that result by which
we are bound.”); County of Allegheny v. Am. Civil Liberties
Union, Greater Pittsburgh Chapter, 492 U.S. 573, 668, 109
S.Ct. 3086, 106 L.Ed.2d 472 (1989) (Kennedy, J.,
concurring in the judgment in part and dissenting in part)
(“As a general rule, the principle of stare decisis directs us
to adhere not only to the holdings of our prior cases, but
also to their explications of the governing rules of law.”).
Once the Supreme Court adopts “a rule, test, standard, or
interpretation ... that same rule, test, standard, or
interpretation must be used by lower courts in later
cases.” United States v. Duvall, 740 F.3d 604, 609 (D.C.
Cir. 2013) (Kavanaugh, J., concurring in the denial of
rehearing en banc). Lexmark established the analytical
framework to be used for determining eligibility
requirements for all statutory causes of action, including
under § 1064, absent contrary Congressional intent. Like
all lower tribunals, we are obligated to apply that
framework where applicable. We thus hold that
the Lexmark zone-of-interests and proximate-causation
requirements control the statutory cause of action
analysis under § 1064.
B. Empresa Cubana
The Board failed to apply the Lexmark analytical
framework, but it reached the correct result. As noted
above, we see no meaningful, substantive difference in the
analysis used in Lexmark and Empresa Cubana.
The zone-of-interests requirement and the realinterest requirement share a similar purpose and
App. 13

application. The purpose of the zone-of-interests test is to
“foreclose[ ] suit only when a plaintiff's interests are so
marginally related to or inconsistent with the purposes
implicit in the statute that it cannot reasonably be
assumed that Congress authorized that plaintiff to
sue.” Lexmark, 572 U.S. at 130, 134 S.Ct. 1377 (citation
and quotation marks omitted). Likewise, a purpose of the
real-interest test is to “distinguish [parties demonstrating
a real interest] from mere intermeddlers or ...
meddlesome parties acting as self-appointed guardians of
the purity of the Register.” Selva & Sons, Inc. v. Nina
Footwear, Inc., 705 F.2d 1316, 1325–26 (Fed. Cir.
1983) (citation and internal quotation marks omitted).
Also like the zone-of-interests test, a petitioner can satisfy
the real-interest test by demonstrating
[1306] a
commercial interest. Compare Lexmark, 572 U.S. at 131–
32, 134 S.Ct. 1377 (“[T]o come within a zone of interests in
a suit for false advertising under § 1125(a), a plaintiff
must allege an injury to a commercial interest in
reputation or sales.” (emphasis added)), with Empresa
Cubana, 753 F.3d at 1275 (“[T]he desire for a registration
with its attendant statutory advantages is a legitimate
commercial interest, so to satisfy the requirements for
bringing a cancellation proceeding.” (emphasis added)).
Given those similarities in purpose and application, a
party that demonstrates a real interest in cancelling a
trademark under § 1064 has demonstrated an interest
falling within the zone of interests protected by § 1064.
Similarly, a party that demonstrates a reasonable
belief of damage by the registration of a trademark
demonstrates proximate causation within the context of §
1064. Congress incorporated a causation requirement in §
1064, which provides a right to bring a cause of action “by
App. 14

any person who believes that he is or will be damaged
... by the registration of a mark on the principal register.” §
1064 (emphasis added). While our precedent does not
describe the causation requirement as one of “proximate
causation,” it nonetheless requires petitioner's belief of
damage to have “a sufficiently close connection,” Lexmark,
572 U.S. at 133, 134 S.Ct. 1377, to the registered
trademark at issue. For example, in Ritchie v. Simpson,
170 F.3d 1092, 1098 (Fed. Cir. 1999), we explained that
possession of “a trait or characteristic that is clearly and
directly implicated in the proposed mark” demonstrates a
reasonable belief of damage. In Jewelers Vigilance
Comm., Inc. v. Ullenberg Corp., 823 F.2d 490, 493 (Fed.
Cir. 1987), we explained that a petitioner can
demonstrate “standing” by asserting “some direct injury
to its own established trade identity if an applicant's
mark is registered.”2 The direct connection between the
belief of damage and the registered mark suffices to
demonstrate proximate causation. Cf. Lexmark, 572 U.S.
at 133, 134 S.Ct. 1377 (holding that “a plaintiff suing
under § 1125(a) ordinarily must show economic or
reputational injury flowing directly from the deception
wrought by the defendant's advertising.” (emphasis
added)). This direct connection also satisfies the purpose
of the proximate-causation requirement—barring suits for
alleged harm that is “too remote” from the unlawful
conduct. Id.at 133, 134 S.Ct. 1377. Given these
similarities, a party that can demonstrate a reasonable
belief of damage by the registration of a mark also
demonstrates damage proximately caused by the
registered mark.
App. 15

C. SFM
Applying Lexmark's analytical framework to the
circumstances of the underlying case, we reach the same
conclusion as the Board—that SFM pleaded allegations
sufficient to demonstrate a right to challenge Corcamore's
registered mark under § 1064. J.A. 11–12. SFM alleges
that because the goods sold under SFM's SPROUTS
trademarks and Corcamore's SPROUT trademark are
substantially similar, purchasers will believe that
Corcamore's use of SPROUT is sponsored by SFM. J.A.
122, ¶ 9. This allegation is well-pleaded3 and is sufficient
to establish a [1307] real interest in the cancellation
proceeding. See Selva, 705 F.2d at 1326 (“[Petitioner] has
demonstrated its real interest in the proceeding through
its reasonable allegation that its trademark ... and the
trademark [sought to be canceled] are confusingly
similar.” (citation and internal quotation marks omitted)).
SFM's allegation, therefore, identifies an interest falling
within the zone of interests protected by § 1064.
SFM also alleges that “[b]ecause the goods sold
under SFM's trademark and [Corcamore's] trademark are
substantially similar, purchasers will be led to the
mistaken belief that SFM's goods and [Corcamore's] goods
originate from the same source, or that [Corcamore's] use
of SPROUT has been sponsored, authorized, or warranted
by SFM, all to SFM's detriment.” J.A. 122 ¶ 9. This
allegation is well-pleaded and is sufficient to establish
proximate causation because it demonstrates SFM's
reasonable belief of damage resulting from a likelihood of
confusion between SFM's SPROUTS mark and
Corcamore's SPROUT mark. See Lipton, 670 F.2d at
1029 (“To establish a reasonable basis for a belief that one
is damaged by the regAisptpr.a0
ti1o6n sought to be cancelled, a

petition may assert a likelihood of confusion which is not
wholly without merit.”).
We therefore hold that the Board correctly
determined that SFM falls within the class of parties
whom Congress has authorized to sue under the statutory
cause of action of § 1064. Cf. Lexmark, 572 U.S. at 137–
40, 134 S.Ct. 1377. We are not persuaded that we should
disturb the result reached by the Board. In other words,
SFM is entitled under § 1064 to petition for cancellation
of the trademark registration to SPROUT.
D. Sanctions
We next review the Board's grant of default
judgment as a discovery sanction. J.A. 79–91. We review a
grant of default judgment as a sanction for abuse of
discretion. See Benedict v. Super Bakery, Inc., 665 F.3d
1263, 1268 (Fed. Cir. 2011). An abuse of discretion occurs
if the decision (1) is clearly unreasonable, arbitrary, or
fanciful; (2) is based on an erroneous conclusion of law; (3)
rests on clearly erroneous fact findings; or (4) involves a
record that contains no evidence on which the Board could
rationally base its decision. Abrutyn v. Giovanniello, 15
F.3d 1048, 1050–51 (Fed. Cir. 1994).
In its Order, the Board analyzed its express and
inherent authority to sanction and found that both
supported its decision to grant default judgment as a
sanction. J.A. 87–91. Corcamore does not challenge the
Board's express authority to grant default judgment as a
sanction under 37 C.F.R. § 2.120(h) and Fed. R. Civ. P.
37(b)(2). Instead, Corcamore argues that the Court had no
factual and legal basis to enter default judgment in the
first place.
App. 17

First, Corcamore contends that the Board abused
its discretion by entering default judgment without ever
having addressed Corcamore's motion to compel
discovery. Second, Corcamore argues that the Board
abused its discretion by conducting an ex parte
teleconference with SFM and, thereafter, denying
Corcamore's motion for a protective order to delay a Rule
30(b)(6) deposition. Third, Corcamore argues that the
Board abused its discretion by finding that SFM did not
receive Corcamore's discovery responses mandated by
[1308] the Board's February 27, 2018 order. We are
not persuaded.
Corcamore's argument regarding its motion to
compel is immaterial because, even if true, discovery
misconduct by one party does not excuse the discovery
misconduct of another party. See TBMP § 408.01 (“A party
is not relieved of its discovery obligations, including its
duty to cooperate, in spite of the fact that an adverse
party wrongfully may have failed to fulfill its own
obligations.”). The record does not support Corcamore's
allegation regarding ex parte communications because the
Board explained that it “terminated the telephone
conference” when Corcamore failed to appear and that it
denied Corcamore's motion because “[Corcamore] failed to
include a statement in support of its good faith effort ... to
resolve the [discovery] dispute.” J.A. 45 (Order denying
Corcamore's motion for a protective order). Finally,
Corcamore failed to follow Rule 2.119 and provided no
written explanation for why it failed to effect email
service, as required by the Board4 and under 37 C.F.R. §
2.119(b)(4). Under these circumstances, we see no abuse
of discretion by the Board. Accordingly, we conclude that
App. 18

the Board's entry of default judgment as a sanction was
not an abuse of discretion.
CONCLUSION
We have considered the parties' remaining
arguments and find them unpersuasive. Because SFM
meets the statutory requirements to challenge
Corcamore's registered mark and because the Board did
not abuse its discretion in imposing sanctions, we affirm.
AFFIRMED
COSTS
Costs to SFM LLC.

Footnotes
1 In Australian Therapeutic Supplies Pty. Ltd. v. Naked TM, LLC,
we addressed § 1064 eligibility criteria and affirmed the Board's
reliance on the Empresa Cubana “real interest in the proceeding” and
“reasonable belief in damage” approach. 965 F.3d 1370, 1376 (2020).
In Australian Therapeutic Supplies, however, neither the parties nor
the Board addressed the applicability of Lexmark.
2 While both Ritchie and Jewelers discussed opposition proceedings
under 15 U.S.C. § 1063, “[t]he statutory requirements to cancel
registration of a mark under § 1064 are substantively equal to the
statutory requirements to oppose the registration of a mark under §
1063.” Australian Therapeutic Supplies, 965 F.3d at 1373.
3 In a Rule 12(b)(6) motion to dismiss, all well-pleaded allegations
in a petition must be accepted as true and the claims must be
construed in the light most favorable to the non-moving party. TBMP
§ 503.02 (2020); Young v. AGB Corp., 152 F.3d 1377, 1379 (Fed. Cir.
1998).
4 May 31, 2017, Board Order, 36 TTBVUE 3, SFM, LLC v.
Corcamore, LLC, Cancellation No. 92060308 (2019).

App. 19

VWRUHDGV H[DPSOHEHORZ ZKLFK6)0·VODZ\HUVFRQYHUWHGIURPWKHLUUHDGDEOH
IRUPDWLQWRORZUHVROXWLRQXQUHDGDEOHIRUPDW&DQ\RXUHDGDOORIWKHDGVEHORZ"


([FHUSWRIGRFXPHQW6)0//&


([FHUSWRIGRFXPHQW6)0//&


([FHUSWRIGRFXPHQW6)0//&


App. 023

Ϯ

